                                U.S. ELECTION ASSISTANCE COMMISSION
                                        OFFICE OF INSPECTOR GENERAL
                                      1225 New York Ave. NW - Suite 1100
                                            Washington, DC 20005



                                                                                 January 23, 2008


Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Revised Final Audit Report – Administration of Payments Received Under the Help
           America Vote Act by the State of Wyoming Secretary of State Elections Division
           (Assignment Number E-HP-WY-03-07)

        We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received under the
Help America Vote Act (HAVA) by the State of Wyoming Secretary of State Elections Division
(State Elections Division). The contract required that the audit be done in accordance with U.S.
generally accepted government auditing standards. Clifton Gunderson is responsible for the
attached auditor’s report and the conclusions expressed therein.

        On August 24, 2007, the Office of Inspector General issued the Final Audit Report to the
U.S. Election Assistance Commission (EAC) Executive Director and requested for a written
response to the recommendations included in this report by October 24, 2007. On November 19,
2007, Clifton Gunderson received additional written comments dated September 21, 2007 from
the Wyoming Deputy Secretary of State. In reviewing the comments received, Clifton
Gunderson revised its Executive Summary to reflect the deputy secretary’s comment. Attached
to the Revised Final Report is a letter from Clifton Gunderson explaining the revisions made to
the Final Report issued on August 24, 2007.

        Please provide us with your written response to the recommendations included in the
Revised Final Report by March 14, 2008. Your response should contain information on actions
taken or planned, including target dates and titles of EAC officials responsible for implementing
the recommendations.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

        If you have questions regarding this report, please call me at (202) 566-3125.
A1
January 4, 2008


Mr. Thomas Wilkey, Executive Director
U.S. Election Assistance Commission
1225 New York Avenue, NW – Suite 1100
Washington, DC 2005


SUBJECT:            Final Report: Administration of Payments Received Under the Help America Vote
                    Act by the Wyoming Secretary of State Elections Division

Dear Mr. Wilkey:

Attached is a revised final report for the State of Wyoming.

After our final report, Report No. E-HP-WY-03-07 dated August 2007, was released by the U.S.
Election Assistance Commission Office of Inspector General, we received, on November 19, 2007,
additional written comments dated September 21, 2007 from the Wyoming Deputy Secretary of
State through your office.

We evaluated the additional written comments and agreed to make certain changes to the final
report referred to above to reflect the deputy secretary’s comment that “at the time of purchase,
there was no intent by the State to purchase anything using funds for non-HAVA use.”

Below shows the only modifications made to the report’s Executive Summary, page 1.

Revised Final Report:

Except for the use of certain equipment purchased with HAVA funds which were used, for non-
HAVA related work, as discussed below, our audit concluded that SED generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above. This includes
compliance with section 251 requirements for an election fund. The exception noted above needing
SED’s management attention is as follows:

   •     Certain computer equipment purchased with HAVA funds at the state offices and in the
         counties for voter registration were used for non-HAVA related activities. The state did not
         have procedures in place to allocate the costs of the equipments between the HAVA and the
         non-HAVA related activities.



    11710 Beltsville Drive, Suite 300
    Calverton, Maryland 20705



                                                                                           h
    tel: 301-931-2050
    fax: 301-931-1710
    www.cliftoncpa.com                    Offices in 15 states and Washington, DC
Mr. Thomas Wilkey, Executive Director
USEAC
January 4, 2008
Page 2 of 2



Original Final Report:

Except for the use of equipment purchased with HAVA funds for non-HAVA related work, which
is discussed below, our audit concluded that SED generally accounted for and expended HAVA
funds in accordance with the requirements mentioned above. This includes compliance with section
251 requirements for an election fund. The exception noted above needing SED’s management
attention is as follows:

    •    The state purchased computer equipment with HAVA funds for use at the state offices and
         in the counties for voter registration which was also used for non-HAVA related activities.
         However, the state did not put procedures in place to allocate the costs of the equipment
         between the HAVA and the non-HAVA related activities.

Please do not hesitate to call me or email me at Mia.Leswing@Cliftoncpa.com if you have questions.



Sincerely,

CLIFTON GUNDERSON LLP


î
Mia Leswing, CPA CISA CGFM
Partner



Attachment:         Revised Final Report: Administration of Payments Received Under the Help America Vote Act
                    by the Wyoming Secretary of State Elections Division




    11710 Beltsville Drive, Suite 300
    Calverton, Maryland 20705



                                                                                                   h
    tel: 301-931-2050
    fax: 301-931-1710
    www.cliftoncpa.com                       Offices in 15 states and Washington, DC
                U.S. ELECTION ASSISTANCE
                       COMMISSION
                OFFICE OF INSPECTOR GENERAL




                    REVISED FINAL REPORT:

                ADMINISTRATION OF PAYMENTS
                  RECEIVED UNDER THE HELP
                  AMERICA VOTE ACT BY THE
                WYOMING SECRETARY OF STATE
                     ELECTIONS DIVISION

                  MAY 1,2003 THROUGH FEBRUARY 28,2007




Report No.
E-HP-WY-03-07
AUGUST 2007
     REVISED FINAL REPORT
  PERFORMANCE AUDIT REPORT

   ADMINISTRATION OF PAYMENTS
    RECEIVED UNDER THE HELP
AMERICA VOTE ACT BY THE WYOMING
  SECRETARY OF STATE ELECTIONS
            DIVISION

  May 1, 2003 Through February 28, 2007


    UNITED STATES ELECTION
    ASSISTANCE COMMISSION




           A1
                                                       TABLE OF CONTENTS




                                                                                                                                                 PAGE

EXECUTIVE SUMMARY...........................................................................................................................1

BACKGROUND .............................................................................................................................................2

AUDIT OBJECTIVES ..................................................................................................................................2

SCOPE AND METHODOLOGY.............................................................................................................3

AUDIT RESULTS..........................................................................................................................................4

APPENDICES

Appendix A: Secretary of State Elections Division’s Additional
               Response to Audit Results.............................................................................................6

                             Attachment 1.................................................................................................................11
                             Attachment 2 ................................................................................................................13
                             Attachment 3 ................................................................................................................15
                             Attachment 4 ................................................................................................................31

Appendix B: Secretary of State Election Division’s Initial
              Response to Audit Results...........................................................................................38

Appendix C: Audit Methodology..............................................................................................................43

Appendix D: Monetary Impact as of February 28, 2007 ....................................................................45
A1
                          U.S. Elections Assistance Commission
  Performance Audit of the Administration of Payments Received Under the Help America
              Vote Act by the Wyoming Secretary of State Elections Division

EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Wyoming
Secretary of State Elections Division (SED) for the period May 1, 2003 through February 28, 2007
to determine whether the SED used payments authorized by Sections 101, 102, and 251 of the Help
America Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable
requirements; accurately and properly accounted for property purchased with HAVA payments and
for program income, and met HAVA requirements for Section 251 funds for an election fund, for a
matching contribution, and for maintenance of a base level of state outlays. In addition, the
Commission requires states to comply with certain financial management requirements, specifically:

     •     Comply with the Uniform Administrative Requirements For Grants And Cooperative Agreements With
           State And Local Governments (also known as the “Common Rule”) as published in the Code of
           Federal Regulations 41 CFR 105-71.

     •     Expend payments in accordance with cost principles for establishing the allowance or
           disallowance of certain items of cost for federal participation issued by the Office of
           Management and Budget (OMB) in Circular A-87.

     •     Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on the audit objectives. Because of inherent limitations, a study and
evaluation made for the limited purposes of our review would not necessarily disclose all weaknesses
in administering HAVA payments.

Except for the use of certain equipment purchased with HAVA funds which were used for non-
HAVA related work as discussed below, our audit concluded that SED generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above. This includes
compliance with section 251 requirements for an election fund. The exception noted above needing
SED’s management attention is as follows:

     •     Certain computer equipment purchased with HAVA funds at the state offices and in the
           counties for voter registration were used for non-HAVA related activities. The state did not
           have procedures in place to allocate the costs of the equipment between the HAVA and the
           non-HAVA related activities.

Offices in 17 states and Washington, DC               1                                   h
We have included in this report the SED’s formal response to our draft report dated July 12, 2007
and the related response to our draft finding and recommendation dated May 30, 2007. The SED
agreed that the equipment was used for non-HAVA related activities, but is of the opinion that the
state and counties should not have to fund any of the computer equipment costs.

BACKGROUND

The Help America Vote Act of 2002 created the U.S. Election Assistance Commission to assist
states and insular areas with the improvement of the administration of Federal elections and to
provide funds to states to help implement these improvements. HAVA authorizes payments to states
under Titles I and II, as follows:

   •   Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for Federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements payments.

   •   Title I, Section 102 payments are available only for the replacement of punch card and lever
       action voting systems.

   •   Title II, Section 251 requirements payments are for complying with Title III requirements for
       voting system equipment; and for addressing provisional voting, voting information,
       statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:
    • Have appropriated funds “equal to 5 percent of the total amount to be spent for such
         activities [activities for which requirements payments are made].” (Section 253)(5).

   •   “Maintain the expenditures of the State for activities funded by the [requirements] payment at
       a level that is not less than the level of such expenditures maintained by the State for the fiscal
       year ending prior to November 2000.” (Section 254 (a) (7)).

   •   Establish an election fund for amounts appropriated by the state “for carrying out the
       activities for which the requirements payment is made,” for the Federal requirements
       payments received, for “such other amounts as may be appropriated under law,” and for
       “interest earned on deposits of the fund.” (Section 254 )(1).

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the State of Wyoming:

   1. Used payments authorized by Sections 101, 102, and 251 of the Help America Vote Act
      (HAVA) in accordance with HAVA and applicable requirements;

   2. Accurately and properly accounted for property purchased with HAVA payments and for
      program income;



                                                   2
     3. Met HAVA requirements for Section 251 funds for an election fund, for a matching
        contribution, and for maintenance of a base level of state outlays.

In addition, to account for HAVA payments, the Act requires states to maintain records that are
consistent with sound accounting principles, that fully disclose the amount and disposition of the
payments, that identify the project costs financed with the payments and other sources, and that will
facilitate an effective audit. The Commission requires states receiving HAVA funds to comply with
certain financial management requirements, specifically:

     4. Comply with the Uniform Administrative Requirements For Grants And Cooperative Agreements With
        State and Local Governments (also known as the “Common Rule”) as published in the Code of
        Federal Regulations at 41 CFR 105-71.

     5. Expend payments in accordance with cost principles for establishing the allowance or
        disallowance of certain items of cost for federal participation issued by the Office of
        Management and Budget (OMB) in Circular A-87.

     6. Submit detailed annual financial reports on the use of Title I and Title II payments.1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SED from May 1, 2003 through
February 28, 2007.

Funds received and disbursed from May 1, 2003 (program initiation date) to February 28, 2007 (47-
month period) are shown below:



                                  FUNDS RECEIVED
     TYPE OF       EAC           STATE   INTEREST              TOTAL           FUNDS             DATA
    PAYMENT      PAYMENT         MATCH    EARNED             AVAILABLE       DISBURSED           AS OF

       101         $ 5,000,000           $0      $748,044       $5,748,044     $      886,605   2/28/2007
       102                   0            0             0                0                  0   2/28/2007
       251          11,596,803      610,358       840,231       13,047,392          7,081,182   2/28/2007

                   $16,596,803     $610,358     $1,588,275     $18,795,436         $7,967,787

Note: Section 251 funds disbursed excluded the disbursements on a cancelled contract totaling
      $3,700,000 and airline travel of $398, which were refunded to the fund. See more
      explanation in Appendix A.

1EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and
251 funds. For Sections 101 and 102, reports are due on February 28 for the activities of the
previous calendar year. For Section 251, reports are due by March 31 for the activities of the
previous fiscal year ending on September 30.


                                                   3
Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on the audit objectives. Because of inherent limitations, a study and
evaluation made for the limited purposes of our review would not necessarily disclose all weaknesses
in administering HAVA payments.

Except for the equipment cost allocation, our audit concluded that SED generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above. This includes
compliance with section 251 requirements for an election fund and for maintenance of a base level
of state outlays. The exception needing SED’s management attention is described below:

I.   Equipment Cost Allocation

The state purchased two (2) desktop computers and one (1) server unit for each county, and other
equipment for election headquarters to be used for voter registration at an invoice price of $199,475,
but at a net cost of $173,322. Title to the computers rests with the state; however, state officials
have given permission to the staff at both the state and county offices to use the equipment for daily
non-HAVA activities. The state did not put procedures in place to allocate the costs of the
equipment between the HAVA and the Non-HAVA related activities, and to reimburse the election
fund for the allocated non-HAVA portion of the costs of the equipment.

The Office of Management and Budget (OMB) Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, Part 7.B.1.b.2 states that a cost is allowable for Federal reimbursement only
to the extent of benefits received by Federal Awards and its conformance with the general policies
and principles stated in OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments, Attachment A., which states that a cost is allocable to a particular cost objective if the
goods or services involved are chargeable or assignable to such cost objective in accordance with
relative benefits received. OMB Circular A-87 further states in 3.b. that all subawards are subject to
those Federal cost principles applicable to the particular organization concerned.

The EAC has also issued guidelines, in response to a question asked about the DeMinimus Uses of
Equipment, that a state can allocate only that portion of the equipment purchase cost that will go to
benefit the state’s HAVA program. Alternatively, the expenses may qualify as an indirect cost in
which case the state may submit an indirect cost rate proposal in which it identifies and supplies
information regarding direct and indirect costs of operation.

Recommendations:

We recommend that the EAC require the SED to:

1.   Implement a policy and procedure to ensure that the cost of equipment purchased with
     HAVA funds is properly allocated between HAVA and non-HAVA related usages.

                                                  4
2.   Determine the amount of reimbursement due to the election fund for non-HAVA usage of
     the applicable equipment since date of acquisition.

SED’s Response:

The SED responded by identifying the sequence of events relating to the purchase of the computer
equipment from a vendor for the voter registration project, and the resulting problems associated
with the contract with the vendor. The vendor eventually refunded most of the money paid on the
contract except for $173,322 for the equipment. The state officials acknowledged that some of this
equipment is being used for non-HAVA related activities. However, they believe that the use of the
equipment for activities not related to HAVA is warranted, based on a number of factors cited in
their response at Appendix A.

The SED’s response in Appendix A included various attachments regarding the allocation of the
percentage of usage assigned to the equipment and other explanatory information. This information
was not available to us at the time of the audit but was only provided in SED’s response to our draft
report. Accordingly, we were not able to examine the basis of the allocation to determine its
reasonableness or accuracy.

Auditor’s Response:

Federal regulations and EAC rulings provide definitive guidance when equipment purchased with
federal funds for a specific purpose is also used for activities not related to the purpose. The
guidance requires that the cost be allocated on a usage basis. It does not provide any exceptions.

                            ****************************************


We provided a draft of our report to the appropriate individuals of the State of Wyoming Secretary
of State Elections Division and the United States Election Assistance Commission. We considered
any comments received prior to finalizing this report.

CG performed its work between January 5, 2007 and June 1, 2007.


A1
Calverton, Maryland




                                                 5
                                                                                        Appendix C

                                    AUDIT METHODOLOGY


Our audit methodology included:

•   Assessing audit risk and significance within the context of the audit objectives.

•   Obtaining an understanding of internal control that is significant to the administration of the
    HAVA funds.

•   Understanding relevant information systems controls as applicable.

•   Identifying sources of evidence and the amount and type of evidence required.

•   Determining whether other auditors have conducted, or are conducting, audits of the program
    that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we:

•   Interviewed appropriate SED employees about the organization and operations of the HAVA
    program.

•   Reviewed prior single audit report and other reviews related to the state’s financial management
    systems and the HAVA program for the last 2 years.

•   Reviewed policies, procedures and regulations for the SED’s management and accounting
    systems as they relate to the administration of HAVA programs.

•   Analyzed the inventory lists of equipment purchased with HAVA funds.

•   Tested major purchases and supporting documentation.

•   Tested randomly sampled payments made with the HAVA funds.

•   Verified support for reimbursements to local governments (counties, cities, and municipalities).

•   Reviewed certain state laws that impacted the election fund.

•   Examined appropriations and expenditure reports for state funds used to maintain the level of
    expenses for elections at least equal to the amount expended in fiscal year 2000 and to meet the
    five percent matching requirement for section 251 requirements payments.

•   Reviewed/examined information regarding source/supporting documents kept for maintenance
    of effort and matching contributions.


                                                  43
•   Evaluated compliance with the requirements for accumulating financial information reported to
    the Commission on the Financial Status Reports, Form SF 269, accounting for property,
    purchasing HAVA related goods and services, and accounting for salaries.

•   Verified the establishment and maintenance of an election fund.

•   Verified whether the state has sustained the state’s level of expenditures for Elections.




                                                  44
                                                    Appendix D



MONETARY IMPACT AS OF FEBRUARY 28, 2007


                                  Questioned
               Description          Costs

Non-HAVA use of equipment                $173,322

Totals                                   $173,322




                             45
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
